                                                                     B-EV-NPS-0012-2005
                   United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240

                                                                      OCT 3 1 2005


The Honorable Sam Brownback
Chairman
Subcommittee on the District of Columbia
Committee on Appropriations
United States Senate
Washington, DC 20510-6025

Dear Mr. Chairman:

     ~ This letter communicates our findings on the promptness of payments the
Departfuent of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the fourth quarter (July 1 through
September 30) of fiscal year 2005.

        The Natiqnal Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its fourth quarter electronic fund transfer payment of $227,944
for the largest account. The partial bill in the arnOlmt of $13 received for the C&O Canal
National Historic Park locations was paid in a timely marmer. NPS had not received all
of the fourth quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

       We also found that third quarter bnl", received in the fourth quarter for the C&O
Canal National Historical Park in the amount of$5,678 and the George Washington
Memorial Parkway in the amount of$l, 237 were paid in a timely manner.

        Should you have questions regarding this information, please feel free to contact
me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector General,
at (202) 208-6232.



                                        C
                                              Sinc~ret~
                                          .fJ( \
                                        /",~\
                                         L"U-' . ,
                                               Earl E. Devaney
                                               Inspector General
                                                                     B-EV-NPS-0012-2005
                    United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington. DC 20240

                                                                        OCT 3 1 2005


The Honorable Mary L. Landrieu
Ranking Minority Member
Subcommittee on the District of Columbia
Committee on Appropriations
United States Senate
Washington, DC 20510-6025

Dear Senator Landrieu:

      ; This letter communicates our findings on the promptness of payments the
Depa.rt:Illent of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the fourth quarter (July 1 through
September 30) of fiscal year 2005.

        The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS -facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department ofthe Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WAS A.

        NPS was timely in its fourth quarter electronic fund transfer payment of $227,944
for the largest account. The partial bill in the amount of $13 received for the C&O Canal
National Historic Park locations was paid in a timely manner. NPS had not received all
of the fourth quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

       We also found that third quarter bi'II~ received in the fourth quarter for the C&O
Canal National Historical Park in the amount of$5,678 and the George Washington
Memorial Parkway in the amount of $1, 237 were paid in a timely manner.

        Should you have questions regarding this information, please feel free to contact
me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office ofInspector General,
at (202) 208-6232.

                                               ,Sincerely, ~,

                                           [   ~f\\~ \
                                                 DeVaney~
                                               Earl E.
                                                          -
                                               Inspector   Gener~l    U
                                                                     B-EV-NPS-0012-2005
                   United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240
                                                                          OCT 3 1 2005


The Honorable Joe Knollenberg
Chairman
Subcommittee on the District of Columbia
Committee on Appropriations
House of Representatives
Washington, DC 20515-6019

Dear Mr. Chairman:

     .:. This letter communicates our [mdings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the fourth quarter (July 1 through
September 30) of fiscal year 2005.

        The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its fourth quarter electronic fund transfer payment of $227,944
for the largest account. The partial bill in the amount of $13 received for the C&O Canal
National Historic Park locations was paid in a timely manner. NPS had not received all
of the fourth quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

       We also found that third quarter bin~ received in the fourth quarter for the C&O
Canal National Historical Park in the amount of$5,678 and the George Washington
Memorial Parkway in the amount of $1, 237 were paid in a timely manner.

        Should you have questions regarding this information, please feel free to contact
me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector General,
at (202) 208-6232.

                                         ,,r-l Sincerely,

                                        t~~~Cr Earl E. Devaney
                                               Inspector General
                                                                     B-EV-NPS-OO 12-2005
                    United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240

                                                                          OCT 3 1 ,?fIns


The Honorable John W. Olver
Ranking Minority Member
Subcommittee on the District of Columbia
Committee on Appropriations
House of Representatives
Washington, DC 20515-3802

Dear Congressman Olver:

     ~ This letter communicates our findings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the fourth quarter (July 1 through
September 30) of fiscal year 2005.

        The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS' facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its fourth quarter electronic fund transfer payment of $227,944
for the largest account. The partial bill in the amount of $13 received for the C&O Canal
National Historic Park locations was paid in a timely manner. NPS had not received all
of the fourth quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

       We also found that third quarter bills received in the fourth quarter for the C&O
Canal National Historical Park in the amOlmt of$5,678 and the George Washington
Memorial Parkway in the amount of $1, 237 were paid in a timely manner.

        Should you have questions regarding this information, please feel free to contact
me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector General,
at (202) 208-6232.

                                               Sincerely,

                                       C) flCC
                                       L~. ~                 ~--
                                               Earl E. Devaney
                                               hlspector General
